Two Former Special Agents With Department Of Commerce Office Of Inspector General Plead Guilty To Submitting False Claims For Relocation Expenses And Time And Attendance Fraud
SEARCH THE SITE
HOME
ABOUT
Our Mission
Our History
Our Office
Geographic Divisions
Organizational Chart
Directions
NEWS
Current Press Releases
2013 Press Releases
2012 Press Releases
2011 Press Releases
2010 Press Releases
2009 Press Releases
U.S. ATTORNEY
PRIORITIES
Affirmative Civil Enforcement
Anti-Terrorism Advisory Council
Asset Forfeiture
Financial Fraud and Identity Theft
Gangs
Human Trafficking
Maryland Exile
Project Safe Childhood
PROGRAMS
Law Enforcement Coordinating Committee
Project Safe Neighborhoods
Victim Witness Assistance
EMPLOYMENT
General Information
Assistant U.S. Attorney
Special Assistant U.S. Attorney
Support Staff
Law Clerk Opportunities
Student Opportunities
CONTACTÂ US
Home » News » Press Release
Two Former Special Agents With Department Of Commerce Office Of Inspector General Plead Guilty To Submitting False Claims For Relocation Expenses And Time And Attendance Fraud
FOR IMMEDIATE RELEASE
April 30, 2013
Greenbelt, Maryland - Two former Special Agents with the U.S. Department of Commerce, Office of Inspector General, Rachel Ondrik, age 35, of Frederick, Maryland, and Kirk Yamatani, age 38, of Ashburn, Virginia, pleaded guilty today to submitting false claims for relocation expenses.  Ondrik and Yamatani resigned their positions with the Department of Commerce on March 29, 2013, as required by their plea agreements.
The guilty plea was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Special Agent in Charge Stephen E. Vogt of the Federal Bureau of Investigation; and Todd Zinser, Inspector General for the U.S. Department of Commerce (DOC).
âTodayâs announcement is the result of significant efforts by the U.S. Attorneyâs Office, the FBI and my office to hold law enforcement agents accountable for years of criminal misconduct,â said Inspector General Todd Zinser of the U.S. Department of Commerce. âIn addition to the fraud perpetrated on the U.S. taxpayers, these now former employees also retaliated by carrying out a destructive campaign of disparagement and false allegations against the Office of Inspector General (OIG).â  Mr. Zinser added, âI commend the U.S. Attorneyâs Office and the FBI for their diligent efforts and perseverance in conducting this investigation.â
According to their plea agreements, in 2009, Ondrik and Yamatani, transferred from the DOC OIGâs Atlanta, Georgia office to Washington, D.C.  Ondrik and Yamatani were authorized relocation benefits, including a househunting trip, en route travel, and temporary quarters living expenses.  Emails between Ondrik and Yamatani show that both agents were aware of the rules governing their relocations and reimbursements for related expenses, yet both attempted to secure payment from the DOC in amounts significantly exceeding what was authorized and submitted claims for relocation related trips they did not take.
For example, Ondrik and Yamatani claimed $4,058.75 and $3,589, respectively for househunting trips, when in fact, they did not make a househunting trip during the time claimed.  Ondrik and Yamatini each also falsely claimed more than $1,500 for travel to their new duty station and falsely claimed reimbursement for temporary quarters living expenses in an amount that was approximately three times what they were authorized.  In all, Ondrik and Yamatani each submitted at least three false vouchers seeking reimbursement for $39,563.25 and $36,305.57, respectively.  When Ondrik and Yamataniâs claims for reimbursement were denied as being over what the travel regulations allowed, Ondrik and Yamatani persisted in their claims.  On several occasions between 2009 and 2011, Ondrik and Yamatani reaffirmed the earlier false statements in their vouchers and made false statements regarding the circumstances of their claims for reimbursement.
Between June 2009 and February 2011, Ondrik and Yamatani also committed time and attendance fraud against DOC OIG, claiming to have worked hours that they did not actually work.  The loss to the government attributable to each defendantâs conduct was approximately $14,000.
The defendants and the government have agreed that if the Court accepts the plea agreement Ondrik and Yamatani will each be sentenced to a term of probation and ordered to pay a fine of $28,000.  In addition, each defendant will be required to pay $14,000 in restitution to the government.  U.S. Magistrate Judge Charles B. Day has scheduled sentencing for June 19, 2013 at 2:30 p.m.
United States Attorney Rod J. Rosenstein praised the FBI and DOC OIG for their work in the investigation. Mr. Rosenstein thanked Assistant U.S. Attorneys Adam K. Ake and Robert K. Hur, who are prosecuting the case.
Return to Top
Help us combat the proliferation of sexual exploitation crimes against children.
Learn More
Protect yourself from fraud, and report suspected cases of financial fraud to local law enforcement.
Learn More
Talk to your kids about gangs and how to avoid them.
Learn More
HOME
ABOUT
Our Mission
Our History
Our Office
Geographic Divisions
Organizational Chart
Directions
News
Press Releases
News Archive
MEET THE U.S. ATTORNEY
Priorities
Affirmative Civil Enforcement
Anti-Terrorism Advisory Council
Asset Forfeiture
Financial Fraud and Identity Theft
Gangs
Human Trafficking
Maryland Exile
PSC
Programs
LECC
PSN
VWA
Contact Us
Accessibility
FOIA
Privacy Policy
Legal Policies &
Disclaimers
Justice.gov
USA.gov